<html>
<title> - OVERSIGHT OF THE ARCHITECT OF THE CAPITOL'S OFFICE OF INSPECTOR GENERAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



OVERSIGHT OF THE ARCHITECT OF THE CAPITOL'S OFFICE OF INSPECTOR GENERAL

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                       Available on the Internet:
       www.gpoaccess.gov/congress/house/administration/index.html
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-284 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>                   
                   
                  
                   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia

 
OVERSIGHT OF THE ARCHITECT OF THE CAPITOL'S OFFICE OF INSPECTOR GENERAL

                              ----------                              


                        WEDNESDAY, MAY 24, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:02 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Loudermilk, 
and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Bob Sensenbrenner, General 
Counsel; Erin McCracken, Communications Director; C. Maggie 
Moore, Legislative Clerk; Ed Puccerella, Professional Staff; 
Jeff Orzechowski, Professional Staff; Rob Taggart, Deputy 
Legislative Clerk/Oversight; Jamie Fleet, Minority Democratic 
Staff Director; Eddie Flaherty, Minority Democratic Chief 
Clerk; and Teri Morgan, Minority Democratic Deputy Staff 
Director/Counsel.
    The Chairman. I now call to order the Committee on House 
Administration, for purposes of today's hearing, the examining 
of the Architect of the Capitol and its Office of the Inspector 
General. The hearing record will remain open for 5 legislative 
days so members may submit any materials they wish to be 
included. A quorum is present, so we may proceed.
    I would like to thank my colleagues and our witnesses for 
being here today. The Architect of the Capitol, Mr. Ayers, 
appeared before us in February.
    Mr. Ayers, as you know, with a full panel of witnesses, it 
was difficult to have a broad discussion, and I appreciate your 
willingness to reappear today.
    Mr. Ayers. Thank you.
    The Chairman. Before going into my opening statement, I 
would like to take a moment to send our thoughts and prayers to 
the entire Architect family and the family of Matthew 
McClanahan. As most of you know, Matthew died on April 18 of 
this year while serving the United States Capitol. He was one 
of more than 2,100 Architect employees who work around the 
clock to maintain and preserve these historic buildings and 
grounds, and we all thank him for his service, and we pray for 
the family and their loss.
    Mr. Ayers, thank you again for being here. When you 
testified in February, the Committee focused on the future 
challenges and priorities of the Architect of the Capitol. 
Today, I would like to direct our attention to a November 2016 
report issued by the General Accountability Office highlighting 
problems with the Architect of the Capitol's Office of the 
Inspector General. The report, as you know, led to the 
resignation of Mr. Mulshine, the former Inspector General, 1 
month later.
    Prior to 2007, the Architect of the Capitol had a single-
person, nonstatutory inspector general. In December of 2007, as 
part of the Consolidated Appropriations Act for fiscal year 
2008, Congress established the Architect of the Capitol's first 
Office of the Inspector General. Congress created the office in 
response to concerns about the delays and escalating 
construction costs associated with the Capitol Visitors Center. 
Congress established a statutory inspector general position to 
audit and report semiannually on management and operations 
issues and other issues as required.
    Last November, the General Accountability Office, the GAO, 
issued a report on the Architect of the Capitol's Office of the 
IG operations, which raised some very serious concerns. GAO 
found that over a 4-year period, from 2012 through 2015, the 
Office of the IG completed only 14 audits, none of which 
included audits of large scale projects, such as the Cannon 
House Office Building's renovations.
    As you know, the Cannon renovations are expected to occur 
over the next 10 years at a cost of approximately $750 million. 
As the GAO reported, and I quote: OIG provided little assurance 
that AOC's most critical programs and contracts received 
adequate oversight, that audit resources were being applied to 
the most critical areas, and that the OIG's efforts would fully 
inform AOC's management of the Congress of any problems or 
deficiencies.
    In addition, GAO reported serious concerns with both the 
auditing and investigative functions of the Architect Office of 
the IG during this time period. Specifically, GAO noted, and I 
quote: The OIG's lack of adequate audit planning, lack of 
criminal investigators, and reliance on AOC program offices to 
conduct investigations of alleged wrongdoing have contributed 
to a significant decline in its audit and investigative reports 
and reported monetary accomplishments.
    This lack of transparency concerns this Committee and calls 
into question the veracity and completeness of information 
presented to Congress about project management.
    GAO continued, as a result of the OIG's minimal audit 
report coverage, the Architect and the Congress may not be 
fully and currently informed about the operations of AOC's 
jurisdictions, offices, and major contracts.
    I look forward to hearing the GAO report, discussing that, 
and the diminishment of the Office of the IG with our witnesses 
today. I would also like to use this hearing to develop a 
strategy to move the Office of the IG forward under the 
direction of Mr. Failla. And, again, I thank each of you for 
your appearances before our Committee today.
    And I now recognize my colleague and the Ranking Member of 
this Committee, Mr. Brady, for an opening statement.
    [The statement of The Chairman follows:]
    Mr. Brady. Thank you, Mr. Chairman. Again, it is a pleasure 
to be here with the Architect of the Capitol, Mr. Ayers, and 
the new Inspector General, and the GAO.
    When I became Chairman of this Committee, I inherited an 
overbudgeted and behind schedule Capitol Visitors Center. 
Working with my colleague and my excellent Ranking Member, Vern 
Ehlers, we were able to partner with the Architect's office and 
get the project back on track. As a result of that work was the 
creation of the Inspector General's Office. So I know from 
experience what the CVC, the Capitol dome renovations, and now 
the Cannon rehab, how important an independent set of eyes can 
be when you are spending billions of taxpayers' dollars.
    I appreciate, Mr. Chairman, your leadership on having these 
issues, and I look forward to hearing from our witnesses.
    [The statement of Mr. Brady follows:]
    The Chairman. The gentleman yields back. Thank you, Mr. 
Brady.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    Seeing none, I would now like to introduce our witnesses.
    First, let me introduce Stephen T. Ayers, who was 
officially appointed on May 13, 2010, to serve a 10-year term 
as the 11th Architect of the Capitol. The Architect is charged 
with the sizeable task of preserving historical buildings 
around the Capitol, throughout the Capitol Grounds, and 
ensuring the structural integrity and the safety for millions 
of visitors who travel here each year to experience firsthand 
the rich history of our Nation's government.
    Under Mr. Ayers' leadership, the Architect oversaw the 
restoration of the U.S. Capitol dome, restoring it to its 
original splendor. He also led the restoration of the Ulysses 
S. Grant memorial, a campus-wide effort to restore and repair 
deteriorating stone facades, and launched the renewal of the 
Cannon House Office Building.
    So we thank you, Mr. Ayers, for being with us today.
    Mr. Ayers. Thank you, Mr. Chairman.
    The Chairman. I also would like to introduce Christopher P. 
Failla, who was appointed on April the 17, 2017, a little more 
than a month ago, as the Architect of the Capitol's Inspector 
General. Before his appointment as the IG, Chris completed a 
26-year Naval career and retired as a Navy captain. And we 
thank you for your service to our country, as well as you, Mr. 
Ayers. His final assignment with the Navy included three 
positions within the Department of Defense's IG Office, 
including director for the Technical Assessment Directorate, 
executive assistant for the deputy inspector general for Policy 
and Oversight, and the senior military advisor and office for 
DOD OIG. So thank you for being here today and for your 
service.
    Now I would like to introduce from GAO, Beryl H. Davis. She 
is the director of Financial Management and Assurance at the 
Government Accountability Office, where her responsibilities 
include audits related to improper payments, grant management, 
agency internal controls, and Federal inspectors general. Ms. 
Davis previously served as vice-president of the standards and 
guidance for the Institute of Internal Auditors, as well as the 
director of audit services and management support for the city 
of Orlando. Ms. Davis is the author of the GAO report on the 
Architect of the Capitol's Office of Inspector General, which 
we will be discussing further during today's hearing. And so 
thank you, Ms. Davis, for being here today.
    Ms. Davis. Thank you.
    The Chairman. The Committee has received each of your 
written testimonies. You will each have 5 minutes to present a 
summary of that submission. As you know, to help keep the time, 
we have a timing device there on your witness table. The device 
will emit a green light for 4 minutes and then will turn yellow 
when 1 minute remains. When the light turns red, it means that 
your time is out, and try to bring it in for a landing if you 
can at that time. Also, remember to hit your mike button to get 
started. And so, again, we thank each of you for joining us 
today.
    And at this time, the Chair will now recognize the 
Architect of the Capitol, Stephen Ayers, for his testimony.

STATEMENTS OF HON. STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL; 
  CHRISTOPHER P. FAILLA, INSPECTOR GENERAL, ARCHITECT OF THE 
 CAPITOL; AND BERYL H. DAVIS, DIRECTOR OF FINANCIAL MANAGEMENT 
      AND ASSURANCE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

               STATEMENT OF HON. STEPHEN T. AYERS

    Mr. Ayers. Thank you, Mr. Chairman, and Ranking Member 
Brady, and Members of the Committee. I appreciate the 
opportunity today to testify and provide an overview of the 
Architect of the Capitol's Office of Inspector General. And we 
are incredibly pleased to have recently welcomed Chris Failla 
as our new statutory Inspector General. I believe that Mr. 
Failla's leadership and experience in several different roles, 
both in high pressure environments and others, perfectly aligns 
with my efforts to transform and strengthen our Office of 
Inspector General. And I can tell you, in his first 30 days, he 
has already made a positive impact.
    The AOC Inspector General Act of 2007 afforded us the 
opportunity to improve and expand IG operations, and I remain 
fully supportive of this effort. And over the years, I have 
ensured that adequate resources are available to support the IG 
and the functioning of his office. In addition to providing 
these resources, I support the IG by setting policy as well as 
setting the tone with my leadership team to ensure that we 
fully support the IG and respect their independence.
    I firmly believe that the IG's value-added and independent 
audits, evaluations, and investigations positively impact my 
agency's success. We empower all of our employees to join in 
the effort to improve our performance and the effectiveness of 
our agency. We require a high performing and engaged workforce 
to continue to deliver and improve upon the specialized 
services that we provide to the Congress and the American 
public.
    We use a variety of communication channels to encourage AOC 
employees to use the inspector general hotline as well as other 
avenues to ensure they avail themselves of the services of the 
IG.
    At a leadership level, when gaps or weaknesses in internal 
controls are identified or suggestions are made to improve our 
operations, we move quickly to address those in a timely 
manner. And I am proud to report to you today that we have 
addressed each and every one of the more than 360 
recommendations put forth by our statutory inspector general to 
date.
    As an example, in the AOC's fiscal year 2016 performance 
and accountability report, their inspector general identified 
that the management of concurrent construction projects is one 
of our key management challenges, and our leadership team 
understands the importance and complexity of this that is 
associated with managing more than a billion dollars in ongoing 
active construction work right now.
    We have implemented sound strategies and used the best 
tools available to incorporate planning, risk assessment and 
risk mitigation, quality control techniques into our 
disciplined project management approach. We will continue our 
commitment to closing out all management challenges and 
opportunities, and ensure the projects that we oversee remain 
on schedule, within budget, and free of waste, fraud, and 
abuse.
    Currently, we are working with the Inspector General on 
several ongoing audits and evaluations, as well as an 
agencywide risk assessment that recently kicked off. And by 
focusing on these types of efforts that increase our ability to 
mitigate risks, the IG is able to maximize its effectiveness 
and advance the agency's goals and objectives.
    We believe that our partnership with the inspector general 
furthers our efforts to improve transparency and 
accountability, and reduce costs. And with your continued 
support and the support of our Inspector General, I am quite 
confident we can continue to carry out that mission.
    Thank you, Mr. Chairman.
    [The statement of Mr. Ayers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Ayers.
    The Chair now recognizes Christopher Failla for purposes of 
an opening statement.

               STATEMENT OF CHRISTOPHER P. FAILLA

    Mr. Failla. Thank you, Mr. Chairman.
    Chairman Harper, Ranking Member Brady, Members of the 
Committee, I am pleased to testify today regarding the Office 
of Inspector General's oversight of the Architect of the 
Capitol. I am excited to be at the helm of the AOC OIG as its 
third statutory IG. Created in 2008, the OIG is a relative 
newcomer to the IG community, overseeing a legislative branch 
agency that is a hundred years old--excuse me--that is hundreds 
of years old. There is enormous potential to strengthen our 
organization to adeptly oversee the agency's programs and 
operations with independence and objectivity.
    I joined the AOC after a 26-year career in Naval aviation, 
retiring as a Navy captain. My last assignment over the past 3 
years was with the Department of Defense OIG, where I was the 
director for the Technical Assessment Directorate, leading 19 
engineers who conducted CIGIE inspections and evaluations on 
major acquisition defense programs along with military facility 
safety inspections. I also oversaw hotline complaints and 
congressional inquiries.
    This experience taught me that effective oversight requires 
audits with clearly defined objectives and criteria. I also 
learned how a successful inspector general's office should be 
staffed, run, and exercise its independence. This perspective, 
among others, will guide my efforts to have well-defined 
objectives and scope in order to increase the effectiveness of 
our audits and evaluations. While AOC projects are large, we 
will do our review work in smaller chunks and report earlier in 
the project or program lifecycle, providing recommendations 
that can still effect change.
    Rather than monitoring the agency through the practice of 
being embedded and attending program meetings, we will be 
shifting to performing well-defined field work, with timelines 
for deliverables and changing our process to ensure 
transparency in our work and also enlist the help of subject 
matter experts where needed to lend credibility to our 
findings.
    The OIG has done a tremendous amount of work in the absence 
of an IG to address the GAO recommendations. They have executed 
the acting IG strategic plan, contracted for an agencywide risk 
assessment, and a quality assurance review of the audit 
program.
    The OIG has scheduled a CIGIE peer review for the 
investigative program, while issuing a revised fiscal year 2017 
and 2018 audit plan, thereby answering all the GAO's concerns 
but one. That one issue concerns restoring criminal 
investigators with law enforcement authority.
    The AOC needs a program that can perform complex criminal 
investigations involving contracting and procurement fraud in 
major programs and contracts. However, I am awaiting the 
results of the CIGIE peer review to help provide the 
information to make this decision.
    In my first 30 days, I have noticed the need for realistic 
expectations in the face of our current resources and staffing. 
We are a small staff required to oversee the useful spending of 
approximately $1 billion of construction and improvements. This 
is a daunting task. I need to evaluate the leverage of 
contracting services, the need for additional staff, and 
prioritizing our work.
    Despite these challenges, my office will continue to be a 
vital resource at an important time in the lifecycle of the 
U.S. Capitol by making the following changes: I have adjusted 
plans to devote more resources to focusing on the high-risk and 
high-impact activities of the agency. The initiatives and plans 
developed will transform the office and expand our in-house 
expertise. This means developing the right expertise to perform 
oversight work and increase our use of subject matter experts.
    We will also perform stringent follow-up investigations of 
recommendations and embark on proactive evaluations. 
Additionally, I have committed to meeting regularly with 
committee staffers interested in OIG matters and with Speaker 
Ryan's Director of House Operations to provide informational 
updates on our work.
    Currently, we have a number of exciting programs, audits, 
and initiatives underway. In April, we contracted with an 
independent certified public accountant firm to audit the AOC's 
2017 financial statements. In May, we initiated an agencywide 
risk assessment to help identify and appropriately consider the 
AOC's risks. We will use the results of this risk assessment to 
assist us in future audit planning efforts.
    We will continue to provide quarterly project status 
reports on the Cannon renewal project and on the Capitol Power 
Plant to the Appropriations Committees, and we are also 
planning--are in the planning phase of a focused audit on 
contract change orders on the Cannon renewal project, and 
expect issuing a report by the end of the fiscal year.
    Additionally, with our review of the U.S. Capitol dome 
restoration project, payments completed are expected to be 
released this audit by the end of the third quarter. I am also 
planning an evaluation which will examine the possibility of 
product substitution on select projects.
    Our investigative program will continue to monitor the live 
hotline center we stood up 2 years ago. We have developed a new 
hotline poster, which is on display across the AOC, and 
recently we have seen an uptick in hotline complaints, along 
with seeing the first use of the AOC Speak Up program to make 
confidential contact with the OIG.
    My first 30 days has been a time of listening, constructive 
conversation with leadership, building on ongoing initiatives, 
and working to be responsive to stakeholder feedback. I will 
work hard to continue to improve our oversight capabilities to 
fight fraud, waste, and abuse. I see my office's presence, 
oversight, and reports as a deterrent to abuses as much as it 
is an office to find abuses.
    My written statement provides expanded detail on the 
ongoing OIG work, and I will be happy to brief the Committee in 
further detail on any of our efforts. Thank you for the 
opportunity to address the Committee.
    [The statement of Mr. Failla follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Failla.
    And now we will hear testimony from Ms. Davis. You are 
recognized for 5 minutes. And thank you again for being here.

                  STATEMENT OF BERYL H. DAVIS

    Ms. Davis. Thank you.
    Chairman Harper, Ranking Member Brady, and Members of the 
Committee, I am pleased to be here today to discuss GAO's 
report issued in November 2016. This report addresses the 
extent to which the Office of Inspector General developed plans 
and policies for oversight of the Architect of the Capitol's 
jurisdictions, offices, and major contracts during fiscal years 
2012 through 2015, and the extent to which such oversight was 
provided.
    The Architect of the Capitol is responsible for the 
maintenance, operation, and preservation of the buildings and 
grounds that make up the U.S. Capitol complex. Overall, AOC 
programs are managed by 10 jurisdictions, supported by the 
Capitol Construction and Operations, which is made up of nine 
central offices. Contracting plays a central role in helping 
the AOC achieve its mission in managing projects.
    During the time of our audit, there were four large ongoing 
mega projects, with an estimated combined cost of over $1 
billion.
    As the Chairman noted, the AOC Office of Inspector General 
was established by the AOC Inspector General Act of 2007 as an 
independent and objective office to conduct and supervise 
audits and investigations relating to the AOC and to keep the 
AOC and the Congress fully and currently informed about 
problems and deficiencies related to the administration of 
programs and operations of the AOC. The office was established 
in part because of congressional concerns about time delays and 
cost overruns during the construction of the Capitol Visitors 
Center, which was open to the public in 2008.
    GAO's recent audit determined that the office's audit 
planning during this period did not include an assessment of 
the AOC's risks or the assignment of priorities for conducting 
audits consistent with standards of the Council of the 
Inspectors General on Integrity and Efficiency, also known as 
CIGIE. Instead, the inspector general at that time emphasized a 
continuous review of mega projects, which the inspector general 
defined as an effort to alert the Architect and the Congress of 
contract management issues as they occurred. This approach and 
the prior inspector general's efforts did not result in any 
audit reports of Capitol mega projects during the 4-year period 
we reviewed. Further, the office provided only one audit report 
of a Capitol jurisdiction program during the 4-year period.
    During this period, the office also reported a decline in 
total audit reports and monetary accomplishments and potential 
dollar savings. In large part, because of the office's 
insufficient audit planning, a limited number of audit reports 
were produced and there was a lack of coverage of the Capitol's 
mega projects. As a result, AOC management and the Congress may 
not have been fully and currently informed about potential 
problems and deficiencies relating to the administration of 
programs and operations of the AOC during the 4-year period.
    Our November 2016 report also addressed our view of the 
Inspector General's changes to the office's investigative 
operations. In fiscal year 2014, the Inspector General at the 
time removed the Office of Inspector General's law enforcement 
authority and the investigators' responsibility to complete 
criminal investigations. Instead, the office investigators had 
responsibility for administrative investigations and relied 
primarily on another entity to perform criminal investigations, 
and on occasion other AOC program offices to perform their own 
investigations.
    The Office of Inspector General has responsibility for 
ensuring the investigations comply with CIGIE standards for 
investigations, which other entities are not subject to. These 
office changes contributed in part to a significant decline in 
investigative reports and monetary accomplishments reported by 
the office. Monetary accomplishments for investigations 
declined from $445,000 in fiscal year 2013 to $7,000 in fiscal 
year 2015.
    GAO made two recommendations to the Architect of the 
Capitol Office of Inspector General in its report. The first 
was to revise and implement policies and procedures to provide 
audit reports based on planning that include risk assessment 
and assignment of priorities consistent with CIGIE standards. 
The second was to obtain a peer review from another Federal 
Office of Inspector General of the office's overall 
investigative operations, including consideration of its 
reliance on investigations performed by other entities, and to 
make any needed changes based on the results of such review.
    The former inspector general agreed with our 
recommendations and stated that the office would implement 
them. We were recently provided with information on the 
office's efforts to address our recommendations, which we are 
in the process of analyzing.
    Chairman Harper, Ranking Member Brady, and Members of the 
Committee, this concludes my prepared remarks. I look forward 
to answering any questions you may have.
    [The statement of Ms. Davis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Ms. Davis, for your 
testimony, and each of you for the testimony that you have 
given.
    We now have a time for our Committee Members to ask 
questions of each of you. Each Member is allotted 5 minutes to 
question the witness. To help each Member track their time, we 
will use the same timing device that you have seen. And I will 
now begin by recognizing myself for 5 minutes.
    There is so much raised in this report and things that are 
here. And just to kind of set the parameters, nobody ever likes 
surprises, and so when you go into the report and you read 
things that you weren't aware of, that is something that causes 
a little bit of concern. But I will start, if I may, with you, 
Mr. Ayers, to ask you some questions on some of the things that 
are here.
    I want to talk for a moment about the decision that is in 
the report about removing the criminal investigators. Did 
that--how was that decision made? Was that--obviously, you knew 
about the decision being made, I assume. Were you informed by 
the previous IG that that was going to be the new plan?
    Mr. Ayers. Yes, Mr. Chairman, I was. And from a big picture 
perspective, you know, Mr. Failla's our third statutory 
Inspector General. And I can recall our first statutory 
Inspector General, Ms. Carol Bates, initially told me upon her 
arrival that she did not believe that deputization of our 
investigators was appropriate. I know about a year into her 
term, she changed her mind on that and informed me that she 
changed her mind, and sought deputization of our investigators 
from the Justice Department, and received it. And then our 
second statutory Inspector General rescinded that. So I am 
aware of all of those comings and goings.
    And I believe, whether they are criminal investigators or 
administrative or whether they carry weapons or don't is solely 
and completely an Inspector General decision, and I haven't 
influenced them or asked them to take one action or another.
    The Chairman. So do you--Mr. Failla, at this point, do you 
support having criminal investigators, or you said that is 
something you are evaluating now?
    Mr. Failla. Yes, sir, I am evaluating that. I am leaning in 
that direction. I believe that the AOC needs those folks to do 
proper fraud, bribery, et cetera, types of investigations that 
are in accordance with CIGIE standards for investigations.
    The Chairman. Okay.
    Mr. Failla. I want to see what the peer review says about 
my investigators. I am obviously new and I am still----
    The Chairman. Sure.
    Mr. Failla [continuing]. Learning my people, and I think it 
is wise to understand the folks that you have doing that job 
before making that decision. And I will--it is not a decision I 
take lightly, especially with the carrying of firearms around 
folks here at the Capitol and also the people within the AOC, 
but at the same time, I think there are mitigating things I can 
do as the IG to ensure the safety of people and also not an 
intimidation factor, if you will, be present.
    The Chairman. You know, one of the concerns and one of the 
things that you have raised, Mr. Ayers, in your testimony, 
certainly in your written testimony and certainly your job, is 
you worry about waste, fraud, and abuse. Now, waste is more 
negligent, abuse could be negligence or some criminal, but 
fraud is criminal. So how do you properly go to see if there is 
any fraud without a criminal investigator? So that is--I know 
that is going to be part of your understanding and your thought 
process here.
    Ms. Davis, did you find in your report that one of the key 
reasons to not have criminal investigators or do away with them 
was because other employees were uncomfortable with the weapons 
in the office, or did I misread something?
    Ms. Davis. There was some information that we came across 
about, you know, concerns about having firearms, but that 
really was not the focus of our recommendation----
    The Chairman. Sure.
    Ms. Davis [continuing]. And the reason we made the 
recommendation.
    The Chairman. Right.
    Ms. Davis. Our reason was, of course, the responsibility of 
the Inspector General to look at issues related to fraud, 
waste, and abuse.
    The Chairman. Is it your opinion that the office would be 
more properly run, better oversight by the IG, if they had 
criminal investigators? Is that your opinion?
    Ms. Davis. We could not provide that opinion. And, in fact, 
our recommendation really focuses on having a peer review.
    The Chairman. Sure.
    Ms. Davis. And that peer review would be--the peer 
reviewers would be in a better position to really make that 
determination.
    The Chairman. Gotcha. And we may come back to this, but my 
time is almost expired.
    So I will now recognize the Ranking Member, Mr. Brady, for 
5 minutes for questions.
    Mr. Brady. Thank you, Mr. Chairman. First of all, for the 
record, I need to say I am a big fan of Mr. Ayers. I think you 
are doing a great job, and I thank you for your service.
    Mr. Ayers. Thank you.
    Mr. Brady. Could you just tell me a little update on the 
Cannon Office Building, you know, what the phases are and how 
we are--how far we have to go and when will it be completed?
    Mr. Ayers. I would be happy to, Mr. Brady. Thank you. So 
the complete renewal of the Cannon House Office Building is 
essentially scheduled to be complete in five different phases. 
The first phase was work in the basement level, and that took 
about a year and a half to 2 years. That work is now complete. 
It was complete on budget and on schedule.
    We now moved into Phase 1 on the congressional election 
cycle, and we are well into Phase 1. Phase 1 is progressing on 
budget and on schedule as well. All of our indicators and all 
of our analysis tell us that that trend of remaining on budget 
and on schedule will continue.
    The next phase of that--of course, the phase we are 
currently in is the west wing of the Cannon building. And we 
will see some important work come up in the next month where a 
temporary roof will go over the fifth floor, and we will then 
demolish the entire fifth floor of the building and construct a 
new fifth floor over the next year and a half or so.
    The next phase, during the next congressional move cycle, 
will happen on the north side of the building. That will take 2 
years, 2 years on the east side, and then 2 years on the south 
side, and we will be complete. It is going very well for us.
    Mr. Brady. So a total of maybe like 4 years?
    Mr. Ayers. Eight years.
    Mr. Brady. Eight years. Well, I hope it is--I hope it works 
out. I guess we will have to have a--I know it is a major 
headache for you because you have to move all the offices back 
and forth, but I guess it will be a prime piece of real estate 
to move back into once it is done. But you are moving them back 
in, phasing people back in, though, right, as you are working?
    Mr. Ayers. That is correct. So we are--the west phase now 
is completely abandoned and we are demolishing all of the 
mechanical, electrical systems in the west wing of that 
building. When that is finished, we will move Members from 
Cannon, Longworth, and Rayburn back into that phase, and at the 
same time, we will empty the north wing of the building.
    Mr. Brady. Thank you.
    Mr. Failla, are you auditing that? Are you--do you have 
your eyes on that, making sure that everything is being done 
properly and correctly?
    Mr. Failla. Yes, sir. We are----
    Mr. Brady. I mean, that is a pretty big project for you to 
jump right into, right? I mean----
    Mr. Failla. There was--before I got here, there was some 
oversight of the Cannon renewal project. We do provide 
quarterly updates to the approps committees on that, so I have 
folks that are in there providing quarterly reports. And we are 
preparing to kick off an audit of contract change reports, 
which often drive costs, often drive schedule, making changes 
to the contract. So we are going to look at that currently and 
hopefully have a report done by the end of the fiscal year on 
the contract change process.
    Mr. Brady. Thank you.
    And, Ms. Davis, thank you for your service. I have no 
questions for you, but I don't want to leave you out. Thank 
you.
    Ms. Davis. Thank you.
    Mr. Brady. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes for questions.
    Mr. Walker. Thank you, Mr. Chairman. I would like to thank 
the panel for being here today for questions.
    Let me start with Mr. Ayers, if I could, please. The 
purpose in creating the independent IG within the Architect of 
the Capitol office was to keep Congress and the AOC informed of 
risk, issues, and management challenges. During the fiscal 
years of 2012 through 2015, the AOC OIG, let me shell that out, 
Architect of the Capitol Office of the Inspector General, 
failed to issue a single audit on any of the mega projects 
under construction by the AOC, which have an estimated combined 
cost of over $1.5 billion, as I am not telling you anything you 
don't know here.
    But my question for you is, were you concerned about the 
lack of independent audits, and did you raise these concerns 
with anyone during those times?
    Mr. Ayers. Thank you, Mr. Walker. I certainly did, and I 
certainly have concern about that. And so let's talk about the 
big picture for a moment, the 8 years that we have had a 
statutory Inspector General. During the first 5 years of having 
a statutory Inspector General, no major projects, in fact, no 
construction projects, no projects at all were reviewed or 
audited or investigated by the IG.
    When our second statutory Inspector General came into 
office, I challenged him, you have to turn this ship away from 
the variety of small, important but small financial audits and 
churn that you are doing and move this office to follow the 
money and start auditing major construction projects, as I 
believe that the Congress desired in setting up this act.
    I know that Inspector General worked hard to move in that 
direction. It was a very difficult transition from auditing 
financial work and credit card purchases to doing multimillion-
dollar contracts, and we are now beginning to see the results 
of righting that ship. And we have the Capitol Power Plant 
cogeneration system audit under our belt, two on the Capitol 
dome under our belt, on the Cannon building under our belt. And 
our new Inspector General fully embraces this focus of auditing 
major projects.
    Mr. Walker. Thank you. Thank you for that answer. And to 
use your words as you were talking, you said it was a very 
difficult transition. Was that due in any part because you were 
hindered in your ability to prioritize these projects?
    Mr. Ayers. I think it was due in part to the skill set of 
the people that worked there at the time. I think it was due in 
part to lack of leadership and direction and really pushing 
this agenda forward in a strong way.
    Mr. Walker. Okay. I appreciate your answer there.
    Mr. Failla, what changes are necessary with respect to the 
OIG's current audit or investigative processes? Could you speak 
to that?
    Mr. Failla. So as Mr. Ayers said, I don't--when the office 
was set up, its focus was not on producing mega project audits. 
It was set up very differently than it is acting today. It 
focused much on the fraud investigations, the investigations in 
that arm, and not solely on mega project audits.
    Today, we are trying to bring in the folks that can do that 
work, viz the people that were hired. I currently have two 
vacancies in my office, one for an auditor, and I am 
advertising for that person to be a construction auditor so 
they can do proper audit work in the large construction areas.
    Mr. Walker. All right. Well, you are making a nice 
transition. We seem to be talking a lot about the past. Let's 
have a question about the future.
    How do you intend to partner with other stakeholders and 
oversight entities, such as this Committee, in conducting your 
work moving forward? Do you have a vision forecast? Can you 
share a little bit of that?
    Mr. Failla. Yes, sir. So I have--in my first 30 days here, 
I have met with all the Committee's staffers, I have met with 
all the jurisdiction heads within the AOC. I have worn holes in 
my shoes walking around the AOC to get to know people, 
understand the issues, find out what projects are going on, and 
also to discuss with the Committee Members what their 
expectations of me are. I plan to meet monthly and quarterly 
with some and provide updates as requested, but in my meetings, 
I will always have an agenda, I will go over what we are 
currently investigating or looking at and provide them updates 
on the Cannon project and any other projects that we are 
currently in the process of doing.
    Mr. Walker. Thank you, panel.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman. I appreciate all 
the witnesses being here today.
    Mr. Ayers, just a couple of questions to clarify. I have 
heard a lot of numbers out here. How much was the cost overrun 
to the CVC? I have read $400 million, I have read $200 million. 
How much was that?
    Mr. Ayers. I would suspect it was $200 million, 
approximately.
    Mr. Loudermilk. Okay. And how behind schedule was it in the 
completion?
    Mr. Ayers. Approximately 2 years.
    Mr. Loudermilk. Two years? Okay. I have read several. I 
just wanted to be clear to make sure that we were on that.
    With that information in mind, $200 million over, 2 years 
behind schedule, what is different now to ensure that the 
Cannon renewal project, which is already $752.7 million, is 
going to stay within budget, hopefully under budget, hopefully 
on schedule? How are you going to ensure that? And what is 
different between now and the CVC?
    Mr. Ayers. I think there are a number of factors that go 
into that. First, every project's success, I believe, is first 
determined on developing what the project is, the scope of the 
project. And once you have that scope nailed down and don't 
change it until construction is complete, that ensures success.
    Mr. Loudermilk. So were there changes mid----
    Mr. Ayers. There were----
    Mr. Loudermilk [continuing]. Midway through the CVC 
project?
    Mr. Ayers. Hundreds of millions of dollars of changes on 
the Capitol Visitors Center project throughout the job.
    Mr. Loudermilk. Was this because of structural design or 
you encountered things that you didn't anticipate, rocks, you 
know, things--I grew up in a construction family, so--okay.
    Mr. Ayers. All of those things, number one; and, two, I 
think the most seminal change in that project was 9/11 happened 
after we were already--we had already awarded all of our 
construction projects and started construction. That required a 
complete redesign of all mechanical, electrical, and security 
systems in the building.
    Mr. Loudermilk. Okay.
    Mr. Ayers. It was a massive change after we had already 
awarded contracts. That is the worst thing that could happen.
    Mr. Loudermilk. So with that significant change, it would 
seem it would be--because you are changing a major project 
midstream, effective auditing and oversight seems to be it 
would be more important then.
    What I was looking for is a more active IG is--in your 
opinion, will that play a factor in helping to complete this 
project, with providing Congress and you with what may be 
happening, not at the surface level, but be able to audit, be 
able to investigate?
    Mr. Ayers. Yes, Mr. Loudermilk, I think it absolutely will. 
Not only our inspector general is reviewing the project, but 
the Government Accountability Office is fully embedded on this 
project and keeping the Congress and me informed of what is 
going on. And so making sure that leadership and management is 
fully aware of the challenges that are present and the budget 
and schedule metrics on a job is important to the success of 
it.
    Mr. Loudermilk. Is there more transparency now than there 
was maybe with the Capitol Visitors Center?
    Mr. Ayers. I think that is probably a true statement, and 
let me give you a couple of examples of that. We meet every 30 
days with the relevant committees and stakeholders on this 
project. That committee makes the important decisions of what 
happens on the job. We also issue all of the relevant 
committees a very detailed monthly report on all of the 
activities on the project. You can clearly see where money 
goes, what the risks are, how we are abating those risks, what 
the schedule is, and what the budget is in that monthly report, 
and we send to this Committee leadership as well as the 
Appropriations Committee. So everyone is fully and concurrently 
aware of what is happening.
    Mr. Loudermilk. Okay. And, of course, for Mr. Failla, this 
is in preparation if we have another round of questioning, 
because as I heard multiple numbers on CVC, I have heard three 
different pronunciations of your name. What is the proper 
pronunciation?
    Mr. Failla. The proper pronunciation is Failla.
    Mr. Loudermilk. Failla. All right.
    Mr. Failla. I go by a lot of nicknames. Failla works also, 
sir.
    Mr. Loudermilk. Well, I have found out after being in this 
office, I have a whole lot more names out there, a lot of them 
that we can't speak of in this Committee. But thank you for 
your service.
    And I will yield back at this time, anticipating some more 
questions.
    The Chairman. The gentleman from Georgia yields back.
    I now recognize the Vice Chairman of the Committee, Mr. 
Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And I can also 
reiterate, many do call him names that we can't pronounce here.
    But, Mr. Failla, Failla. Right? Thank you. Failla. There 
goes my time. Glad you asked that question, Barry. I will come 
back to you, Mr. Failla.
    But, Mr. Ayers, thank you for what your office does. You 
have so many good employees. A few were up in my office 
yesterday, and they are always very responsive. And I would 
like you to relay my thanks to the many men and women who work 
for the AOC for the job that they do keeping this campus as up-
to-date and as beautiful as it is for, not just Members of 
Congress, but for the millions of people who come to our 
Nation's Capitol each year.
    With that in mind, we see the CVC as a great, wonderful 
opportunity to bring many tourists in each year, but not 
without its problems in the building process, not without its 
problems as we move ahead and look at other projects like 
Cannon. And that is where we come in as the House 
Administration Committee. You have been the AOC and the deputy 
before that, right?
    Mr. Ayers. That is correct.
    Mr. Davis. Okay. Were you surprised? I mean, please, were 
you surprised by the GAO findings that we have talked about 
today?
    Mr. Ayers. This particular GAO report?
    Mr. Davis. Yeah.
    Mr. Ayers. I certainly wasn't surprised by the law 
enforcement discussion. I was certainly fully aware of that, 
and I know the back and forth of----
    Mr. Davis. What about----
    Mr. Ayers [continuing]. Deputizing. On the other portion--
--
    Mr. Davis. What the information, the quality of information 
that you were receiving from the OIG?
    Mr. Ayers. I am certainly aware that our past IG took a 
completely different approach than the previous IG, and so it 
was no surprise to me to see that an accounting of the number 
of reports issued was very significantly different. That was 
not a surprise to me.
    It was a surprise to me to learn that perhaps some of our 
stakeholders are not being fully informed and kept up-to-date 
on the activities of the Office of Inspector General.
    Mr. Davis. Did you express any concerns?
    Mr. Ayers. Absolutely. Yes.
    Mr. Davis. Who did you express those concerns to?
    Mr. Ayers. To the Inspector General.
    Mr. Davis. To the Inspector General? To this Committee at 
all?
    Mr. Ayers. Not to this Committee, no.
    Mr. Davis. Okay. The last Inspector General came from 
where?
    Mr. Ayers. He was the Deputy General Counsel in the 
Architect's Office of General Counsel.
    Mr. Davis. So somebody that worked within your agency under 
your supervision?
    Mr. Ayers. Correct.
    Mr. Davis. Did you select him?
    Mr. Ayers. I did select him.
    Mr. Davis. Okay. Okay.
    Mr. Ayers. He was not selected--he was not the first 
selectee. That is an important point. I have heard some 
criticism about that in the past, and not many people know that 
we actually offered that job to someone different than that IG, 
and we were not able to seal a deal with that applicant and we 
went to this one.
    Mr. Davis. Okay. When you saw a precipitous decline of 
monetary accomplishments associated with the changing practices 
of the last IG, did that alarm you?
    Mr. Ayers. It certainly alarmed me when I saw that in the 
GAO report. And I also would see that in the semiannual reports 
to Congress that the IG submitted every 6 months.
    Mr. Davis. Okay.
    Mr. Ayers. So I was aware of that, I saw that, but I also 
know I don't--I urged the IG--as you know, I can't direct the 
IG to do anything--but I urged them to stop looking at all of 
the things you were looking at in the past and look at the big 
construction projects and the more than 5,000 procurement 
actions that we take every year.
    Mr. Davis. Sure. And that is exactly what we want your 
focus to be. And we also want you to communicate with us. We 
are here to help. We appreciate what you do, but it is 
frustrations we have with the process that we are talking about 
today and that was mentioned in the GAO study that bring you 
here today----
    Mr. Ayers. Yes.
    Mr. Davis [continuing]. And cause frustration, I am sure, 
for you too. But we want to work with you and we need open 
communication.
    Mr. Failla, thank you. I am not going to subpoena your 
shoes you wore out. Okay? But they told me I could, but I am 
not going to do that.
    Mr. Failla. It is true.
    Mr. Davis. You have got a tough job in front of you. 
Obviously, there wasn't much communication with this Committee 
from your predecessor. We just established that. I would urge 
you to understand that we are here to work with you to make 
sure projects get finished on time, but to also make sure that 
if there are concerns, there are issues, that we get them 
addressed. And I don't think that happened in the past, and I 
would urge you in your new position to make sure it happens in 
the future.
    And with that, I saw my red light. I yield back no balance 
of my time.
    The Chairman. The gentleman yields back.
    I would like to ask a couple of follow-up questions, if I 
may, in this. And as we go through that, and, Mr. Ayers, you 
have said that you--while you don't obviously interfere with 
what the work of the IG is, you do express concerns that you 
have. But you are the person who appoints or names that person 
to be the IG and you also have removal authority if they aren't 
doing their job. Is that correct?
    Mr. Ayers. That is correct.
    The Chairman. Okay. And so you expressed some of these 
issues with the previous--Mr. Mulshine, the previous IG. And 
what was his response when you had those conversations with 
him?
    Mr. Ayers. He fully understood the concerns, and often 
spoke about the challenges that he might be facing in his 
ability to move the office in this direction and righting the 
ship towards that goal. And we would have open conversations 
about the challenges and the expectations of me and the 
expectations of Congress.
    The Chairman. This, of course, was obviously a pattern or a 
problem for a number of years. Did it never rise to the level 
that you felt removal was necessary?
    Mr. Ayers. It did not.
    The Chairman. Okay. All right.
    Ms. Davis. I had another question I wanted to ask you. In 
that November 2016 report, GAO noted that because of the OIG's 
insufficient audit planning, the OIG provided no audit reports 
of the AOC's mega projects with an estimated combined cost of 
over $1.1 billion, and the OIG provided limited audit oversight 
of the AOC's jurisdictions and offices. So we know we have 
discussed that in this hearing.
    I guess the biggest thing would be is, do you have any 
sense at this point whether or not those have been corrected in 
the followup and whether or not the OIG has adopted the CIGIE 
quality standards for Federal inspectors general?
    Ms. Davis. I do not have that information. I will say that 
the inspector general at the time did agree with the 
recommendations that we made. And based on some comments that 
have been made here today, I understand that progress is being 
made in addressing our recommendations, but we have not done an 
analysis of the operations or the activities at this point.
    The Chairman. And you do anticipate to do an analysis or 
further review. Would that be correct?
    Ms. Davis. We will do a followup of the recommendations, 
yes.
    The Chairman. And when might that be?
    Ms. Davis. With--I would say in the next few months would 
be reasonable.
    The Chairman. Okay. Certainly, before the end of the year, 
you would have looked at this----
    Ms. Davis. Yes.
    The Chairman [continuing]. And done another----
    Ms. Davis. Yes. Absolutely.
    The Chairman [continuing]. Review. Would that be correct?
    Let me ask you how--for you, how important are those--are 
those standards to an office?
    Ms. Davis. They are standards that are established by CIGIE 
for looking at the risk assessment or performing a risk 
assessment and determining, you know, what jobs need to be 
placed in priority, is extremely important. And I say that 
because often offices will have a peer review, the peer review 
will be based on particular engagements, and those engagements 
will only be reviewed during a peer review. However, when GAO 
goes in to conduct an audit, we look a little bit more broadly 
at whether or not the audit coverage that is intended is 
actually there and effective. So that is important to make sure 
that the audit coverage is based on prioritization of risks and 
that, you know, that work is being done.
    The Chairman. Well, we will look forward to a future 
followup on these issues as well.
    And certainly, I can think of incredible responsibilities 
that your office has, Mr. Ayers. This is--you know, it is a 
daunting task that you have to juggle these even multiple mega 
projects, but all of the things that have to be done. Our 
objective here is to provide our oversight that we need to do. 
We are also here to help, and it is better for us if we know 
when there is an issue, rather than read about it in a GAO 
report. I think that is best for everybody.
    And, Mr. Failla, if you have any questions, we are all 
available to help in any way we can. We wish you the best. You 
are almost--you are like the person that--almost like the dog 
that caught the car, you know. So here you are. So we wish you 
the best. That is a very challenging job you have.
    Mr. Brady, any followup for you?
    Mr. Loudermilk, do you have any follow-up questions before 
we adjourn?
    Mr. Loudermilk. Yes, if I may, Mr. Chairman.
    Mr. Failla, or Failla. I even asked, and then I pronounced 
it wrong. Just a couple questions for you and one for Ms. 
Davis. As I was looking at the numbers on the CVC, originally 
anticipated to be $295 million, ended up being $600 million, I 
mean, that is almost enough to build another structure. I mean, 
that is a significant increase.
    Considering the Cannon renewal and other major projects, we 
have the Rayburn parking, there are several other things going 
on, do you feel in your current position, do you have the 
proper amount of tools, resources, authority, and flexibility 
to do your job properly?
    Mr. Failla. When I first came onboard here, looking at the 
number of FTE that we have to do, the work that we need to do 
and the oversight that we need to do, I do not feel that we 
have enough personnel to do it.
    Mr. Loudermilk. Okay.
    Mr. Failla. Currently, my office, and this is no fault of 
anyone else's, but we had a death before I arrived. We lost one 
of our more experienced auditors, so we are trying to fill that 
position now. My deputy and lead counsel has accepted a 
position at AbilityOne as the next IG there, so that position 
is vacant. So I have no second nor counsel. And my AIG for 
audit had back surgery last Thursday, and he is going to be 
convalescing up to 6 weeks.
    I have a very small office to begin with, and I am already 
well behind in trying to do the things that I am being asked to 
do. So that is where the reprioritization comes in. I am trying 
to take on the things that are important, continue to do the 
quarterly audits that have been mandated by us, but also trying 
to get a project or two out, and do them in smaller scoped 
projects that my folks that I have onboard can handle, get 
things done that we can effect change on and show results and 
bring back stuff.
    I think what happened in the--previously, in the way the 
process was working with the IG, I don't want you to think that 
he wasn't and the folks in my office weren't doing their job or 
doing work. They were. They were just doing it in a different 
way. They were reporting on things as of running kind of 
project and commentary. If they saw something, they would tell 
project managers that this seemed to be a problem and they had 
a recommendation for them, but they weren't putting it into 
reports. I think that is what the change has to be and is going 
to be with my office.
    Mr. Loudermilk. Does the lack of criminal investigatory 
powers inhibit your ability to effectively do the job?
    Mr. Failla. I think it concerns me, for sure, to fight 
fraud and to look at the criminal aspects that could be taking 
place, bribery, et cetera, things like that, where we could 
stop it. And I am leaning in that direction to bringing back 
criminal investigators.
    Mr. Loudermilk. Thank you.
    Mr. Failla. I would like to say that a criminal 
investigator is not a gun.
    Mr. Loudermilk. Right. Exactly.
    Mr. Failla. And that is the kind of big point I would like 
to make about it. It doesn't necessarily mean it is a gun. And 
my folks, you know, when I get to know them a little better and 
after this peer review and I can make that decision freely and 
wisely, I will have things in place that ensure that folks 
within the AOC are not--never intimidated nor see a gun.
    Mr. Loudermilk. Well, and I would reemphasize that many 
investigators in the criminal field, especially forensic 
investigators dealing with information technology never carry a 
gun, never--they are digging through computer files, they are 
digging--their investigation is done tracking documents. And so 
I appreciate you bringing that up.
    Ms. Davis, basically the same question, but from your 
opinion, does Mr. Failla have, or Failla, have the tools, the 
resources, the authority, and the flexibility he needs to 
ensure that his job can be done effectively?
    Ms. Davis. I would like very much to answer that question, 
but I don't have the knowledge to answer that question, or we 
have not done research in that area.
    Mr. Loudermilk. Okay. If you would let us know at the point 
that you have the opportunity to do that, I appreciate it, 
because our objective is to see the success of these projects 
and of the office.
    And I may close with this, Mr. Chairman: Recently, we had a 
bridge that made national news in Georgia, in Atlanta, burned 
down. The initial estimates--and it was a major interstate, 
created a lot of problems. The original estimate is that it was 
going to take 6 months to build that. It is open. It was just a 
matter of weeks to not only repair it, but actually do other 
road improvements.
    I was on the phone with a contractor, I said, how did we do 
this so fast? He said, basically the Federal Government got out 
of the way.
    I would hope that maybe we would take a look at some of the 
restrictions and obstacles that we face, and maybe a 10-year 
project could end up being a 5-year project if we didn't 
restrict our own selves.
    So with that, Mr. Chairman, I thank you. I yield back.
    The Chairman. The gentleman yields back.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we would forward to you and ask that you 
respond as promptly as you can to those so that those answers 
can be made a part of the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Before I adjourn the hearing, I want to take 
a moment to congratulate one of our Committee Members. This 
week marks the 10th anniversary of Mr. Brady's service as the 
Ranking Democratic Member or Chairman of this Committee. While 
Mr. Brady and I, maybe sometimes we need an interpreter, but 
we--we may disagree, we come from obviously different political 
backgrounds, but I can think of no one that I respect more or 
we--even when we disagree, it is friendly, and he has become a 
dear friend. So we want to congratulate you, Mr. Brady, on that 
service. Thank you so much.
    Mr. Brady. No pizza?
    The Chairman. And all--thank you.
    Mr. Brady. Thank you.
    The Chairman. But thank you all for being here.
    Without objection, the hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]
		
			[all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
